Appellate Case: 19-1290

Document: 010110409890

Date Filed: 90/98/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeal
Tenth Circuit

FOR THE TENTH CIRCUIT

September 10, 2020
Christopher M. Wolpert
Clerk of Court

HOLLY MACINTYRE,
Plaintiff - Appellant,
v.

JP MORGAN CHASE BANK, N.A.,

Nos. 19-1290 & 20-1016
(D.C. No. 1:19-CV-00172-DDD-NYW)
(D. Colo.)

Defendant - Appellee.

ORDER AND JUDGMENT*

Before BRISCOE, MATHESON, and CARSON, Circuit Judges.

Holly MacIntyre, proceeding pro se,1 appeals in No. 19-1290 from the district
court’s dismissal of her action against JP Morgan Chase Bank, N.A. (Chase), in
which she claimed Chase committed fraud during a foreclosure proceeding in state
court. She further appeals in No. 20-1016 from the district court’s award of attorney

* After examining the briefs and appellate record, this panel has determined
unanimously to honor the parties’ request for a decision on the briefs without oral
argument. See Fed. R. App. P. 34(f); 10th Cir. R. 34.1(G). The case is therefore
submitted without oral argument. This order and judgment is not binding precedent,
except under the doctrines of law of the case, res judicata, and collateral estoppel. It
may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1
and 10th Cir. R. 32.1.
i

We liberally construe Ms. MacIntyre’s pro se filings but “will not act as [her]
advocate.” James v. Wadas, 724 F.3d 1312, 1315 (10th Cir. 2013).

f)

Appellate Case: 19-1290

Document: 010110400890

Date Filed: 90/90/2020

Page: 2

fees to Chase under Colo. Rev. Stat. § 13-17-201. Exercising jurisdiction under
28U.S.C. § 1291, we affirm.2
I. BACKGROUND
Ms. MacIntyre owned real property in Jefferson County, Colorado. In 2003,
she executed a $100,000 promissory note secured by a deed of trust on the property.
In 2014, Chase, asserting it was the note holder, sought a foreclosure judgment in
state court authorizing a sale of the property. During that proceeding, the court
rejected Ms. MacIntyre’s assertion that Chase’s note was forged, concluded Chase
was the note holder, and issued a judgment of judicial foreclosure. Ms. MacIntyre
appealed to the Colorado Court of Appeals (CCA) and filed three motions to stay
execution of the judgment—one in the trial court and two in the CCA. All three were
denied, which Ms. MacIntyre attributed to Chase’s “fraudulent misrepresentations of
fact and law.” R. Vol. 1 at 10 (internal quotation marks omitted). In January 2016,
while the appeal was pending, the property was sold at a sheriffs sale. In April
2016, the CCA affirmed the foreclosure judgment. Ms. MacIntyre sought certiorari
review in the Colorado Supreme Court but later requested dismissal of her petition on
mootness grounds, and the court dismissed the petition in January 2017.
In January 2019, Ms. MacIntyre initiated this action, alleging that “Chase’s
fraud in the foreclosure proceeding has caused [her] extraordinary financial damage

2 These appeals are consolidated for procedural purposes only.
2

Appellate Case: 19-1290

Document: 010110409890

Date Filed: 90/90/2020

Page: 3

by the irreversible loss of her primary residence” and that “Chase’s foreclosure fraud
was solidified by the fraudulent tactics it used in thwarting the indispensable stay she
needed to have any possibility of reversing the foreclosure judgment on appeal.” Id.
at 11. She further alleged that “the mootness of her appeals . . . entitled [her] to have
her foreclosure judgment vacated” and that she intended to seek such vacatur in
Colorado’s appellate courts. Id.
Ms. MacIntyre did not immediately serve the complaint on Chase because she
believed “the viability of this lawsuit” largely hinged on the outcome of the motion
she intended to file in the CCA and that an order granting her motion “might obviate
the need for this lawsuit and entitle [her] to relief in the state courts of Colorado.”
Id. at 45. In February, however, before she served the complaint, counsel for Chase
entered an appearance, waived service, and moved to dismiss based on (1) lack of
subject-matter jurisdiction under the Rooker-Feldman doctrine, see D.C. Court of
Appeals v. Feldman, 460 U.S. 462 (1983); Rooker v. Fid. Tr. Co., 263 U.S. 413
(1923); (2) lack of subject-matter jurisdiction under the Younger doctrine, see
Younger v. Harris, 401 U.S. 37 (1971); (3) collateral estoppel; (4) judicial estoppel;
(5) statute of limitations; and (6) failure to adequately plead her claim for fraud.
At a status conference a month later, Ms. MacIntyre stated she believed
Chase’s motion was premature and did not require a response. Chase countered that
it had made a general appearance and that it was not required to wait until service
before filing a dispositive motion. The court allowed Ms. MacIntyre until April 9 to
3

Appellate Case: 19-1290

Document: 010110400890

Date Filed: 90/90/2020

Page: 4

file a response to the motion to dismiss and to raise any challenge to the propriety of
Chase’s appearance and motion to dismiss. Ms. MacIntyre also informed the court
she intended to file a motion to vacate the foreclosure judgment with the CCA by
March 22.
Ms. MacIntyre ultimately filed that motion on March 29. The CCA denied it
two weeks later, explaining that the mandate in her appeal had issued in January 2017
and that “[n]o further motion to vacate will be considered.” R. Vol. 1 at 90.
Meanwhile, after serving the complaint, Ms. MacIntyre filed (1) a motion to strike
Chase’s motion to dismiss as premature; and (2) a response to the motion to dismiss,
in which she provided only “a discreet response” to the issue of collateral estoppel
due to “her very delicate legal situation,” id. at 81-82.
In June 2019, the district court dismissed the action under the Rooker-Feldman
doctrine. The court did not address Chase’s other defenses, and it denied as moot
“[a]ll other pending motions,” id. at 141. Ms. MacIntyre moved for reconsideration
under Fed. R. Civ. P. 59(e), which the court denied, although it modified the
dismissal to be without prejudice. Chase then moved for clarification, as to whether
the dismissal was sua sponte or based on Chase’s motion to dismiss. The court
granted the motion and clarified it had granted Chase’s Rule 12(b)(1) motion to
dismiss. Ms. MacIntyre gave timely notice of appeal from the dismissal and the
post-judgment orders.

4

Appellate Case: 19-1290

Document: 010110400890

Date Filed: 90/90/2020

Page: 5

Meanwhile, Chase moved for attorney fees under Colo. Rev. Stat.
§ 13-17-201, which requires an award of attorney fees to the defendant when a tort
action brought for injury to person or property is dismissed on the defendant’s Rule
12(b) motion. The court granted the motion but imposed “a general reduction of 25%
of the requested hours.” R. Vol. 2 (20-1016) at 62. Ms. MacIntyre moved to
reconsider under Fed. R. Civ. P. 59(e), claiming that because the court dismissed the
action for lack of subject-matter jurisdiction under Rooker-Feldman, it also lacked
jurisdiction to award attorney fees. The court denied the motion, and Ms. MacIntyre
timely appealed from the attorney fees orders.
II. DISCUSSION
In No. 19-1290, Ms. MacIntyre contends the district court erred in (1) denying
as moot her motion to strike Chase’s motion to dismiss; (2) dismissing her fraud
claim for lack of subject-matter jurisdiction under Rooker-Feldman; (3) denying her
motion for reconsideration; and (4) clarifying it had granted Chase’s motion to
dismiss. In No. 20-1016, Ms. MacIntyre contends the district court erred in
(1) awarding attorney fees to Chase under Colo. Rev. Stat. § 13-17-201; and
(2) denying her motion for reconsideration based upon lack of jurisdiction.

5

Appellate Case: 19-1290

Document: 010110409890

Date Filed: 90/90/2020

Page: 6

A. Appeal No. 19-1290
1. Denial of Ms. MacIntyre’s Motion to Strike as Moot
Ms. MacIntyre argues the district court erred in denying her motion to strike
Chase’s motion to dismiss as moot. We review this issue for an abuse of discretion.
See In re Gold Res. Corp. Sec. Litig., 776 F.3d 1103, 1119 (10th Cir. 2015).
In her motion, Ms. MacIntyre argued Chase’s motion to dismiss should have
been stricken because Chase filed it before she had served the complaint. The district
court did not reach this argument and instead explained: “[I]f Chase is correct that
the Court does not have jurisdiction, whether its motion to dismiss should be stricken
is immaterial considering the Court’s ongoing obligation to evaluate its own
jurisdiction.” R. Vol. 1 at 136. After concluding that Rooker-Feldman barred the
action, the court denied all pending motions, which included the motion to strike, as
moot. Ms. MacIntyre asserts that when the court later clarified the dismissal was the
result of granting Chase’s motion to dismiss and was not sua sponte, “the Motion to
Strike automatically became not immaterial, but very material,” because the motion
to dismiss “could not be [evaluated] until the Motion to Strike it had been decided.”
Aplt. Opening Br. (19-1290) at 19.
In effect, Ms. MacIntyre argues the district court abused its discretion by not
ruling on her motion to strike before ruling on Chase’s motion to dismiss. She offers
no authority for this position. See United States v. Garcia, 946 F.3d 1191, 1210 n.l 1
(10th Cir. 2020) (noting a “party who fails to develop or provide any authority in
6

Appellate Case: 19-1290

Document: 010110400890

Date Filed: 00/00/2020

Page: 7

support of [an] argument [has] waived it” (internal quotation marks omitted)).
Ms. MacIntyre thus has failed to show the court abused its discretion in denying her
motion to strike as moot.
2. Dismissal of the Fraud Claim Under Rooker-Feldman
Ms. MacIntyre next contends the court erred in dismissing her action for lack
of subject-matter jurisdiction under the Rooker-Feldman doctrine. We review this
issue de novo. See Mann v. Boatright, All F.3d 1140, 1145 (10th Cir. 2007).
Under “the Rooker-Feldman doctrine, lower federal courts are precluded from
exercising appellate jurisdiction over final state-court judgments.” Lance v. Dennis,
546 U.S. 459, 463 (2006) (per curiam). The doctrine applies to federal cases
“brought by state-court losers complaining of injuries caused by state-court
judgments rendered before the district court proceedings commenced and inviting
district court review and rejection of those judgments.” Exxon Mobil Corp. v. Saudi
Basic Indus. Corp., 544 U.S. 280, 284 (2005).
a. Finality of state court action
Ms. MacIntyre argues the state-court foreclosure proceeding was not final
under Rooker-Feldman when she filed her federal complaint. She further argues her
state-court proceeding does not satisfy any of the conditions for finality that we noted
in Guttman v. Khalsa, including:
(1) when the highest state court in which review is
available has affirmed the judgment below and nothing is
left to be resolved; (2) if the state action has reached a
7

Appellate Case: 19-1290

Document: 010110409890

Date Filed: 90/08/2020

Page: 8

point where neither party seeks further action; or (3) if the
state court proceedings have finally resolved all the federal
questions in the litigation, but state law or purely factual
questions (whether great or small) remain to be litigated.
446 F.3d 1027, 1032 n.2 (10th Cir. 2006) (internal quotation marks omitted).
In Guttman, we held the plaintiffs state-court proceeding was not final
because his certiorari petition with the New Mexico Supreme Court was pending
when he filed his federal action. See id. at 1032. Ms. MacIntyre characterizes her
situation as only “a slight variation on . . . Guttman.” Aplt. Opening Br. (19-1290) at
27. But the difference is dispositive. Two years before she filed her federal action,
the Colorado Supreme Court dismissed, at her request, her petition for a writ of
certiorari from the CCA’s decision affirming the foreclosure judgment. Thus, unlike
in Guttman, Ms. MacIntyre had no pending petition before the state’s highest court
when she filed her federal action.
Ms. MacIntyre also asserts her state-court proceeding was not final “because
the Colorado Supreme Court did not affirm the judgment of foreclosure” but, instead,
“dismissed the petition for certiorari on mootness grounds.” Id. at 25 (emphasis
added) (citation omitted). But we have cited Guttman for the broader principle that
Rooker-Feldman applies when the “state court appeals process has run its full
course.” Erlandson v. Northglenn Mun. Court, 528 F.3d 785, 788 n.3 (10th Cir.
2008). In Erlandson, we found the state-court proceeding final for purposes of
Rooker-F eldman when the Colorado Supreme Court did not affirm the trial-court
8

Appellate Case: 19-1290

Document: 010110400890

Date Filed: ®0/(D0/2O2O

Page: 9

judgment but, instead, denied the federal plaintiff’s certiorari petition. See id.
Similarly, when the Colorado Supreme Court dismissed Ms. MacIntyre’s certiorari
petition, the “state court appeals process ha[d] run its full course.” Id. The CCA’s
order denying her March 2019 motion to vacate, confirmed her appeal was final in
January 2017—two years before she commenced her federal action.
Finally, Ms. MacIntyre argues the state court action is not final because she
will “seek further action” by “filing a Petition for a Rule to Show Cause in the
Colorado Supreme Court to vacate the state-court-judgment.” Aplt. Opening Br. (191290) at 25-26 (internal quotation marks omitted).3 But she concedes such a petition
would be subject to the appellate rule “govern[ing] supreme court original
proceedings” without “any time limit on filing,” and would not be “a continuation of
the concluded appellate process.” Id. at 26 (internal quotation marks omitted). She
offers no authority—and we know of none—for her claim that a party can avoid
finality under Rooker-Feldman by initiating, let alone expressing an intention to
initiate, an original proceeding in a state appellate court after an appeal has
concluded. See Garcia, 946 F.3d at 1210 n.l 1 (noting an argument unsupported by
authority is waived).

3 According to Chase, Ms. MacIntyre still “ha[d] not filed such petition” as of
January 2020. Aplee. Br. (19-1290) at 18 n.l0.
9

Appellate Case: 19-1290

Document: 010110400890

Date Filed: 90/90/2020

Page: 10

b. Rooker-Feldman precludes review of state-court judgment
Ms. MacIntyre next argues her complaint does not implicate Rooker-Feldman
because she is not “complaining of injuries caused by [the] state-court judgment[]”
and is not “inviting district court review and rejection of [that] judgment[].” Exxon
Mobil Corp., 544 U.S. at 284. We disagree.
Her sole claim is that Chase fraudulently procured both the foreclosure
judgment and the orders denying her motions to stay execution of the judgment. For
a federal court to grant relief on her claim, it necessarily would have to find that the
judgment and post-judgment orders were fraudulently procured. Her claim therefore
depends on a federal court finding that the state courts erred in entering judgment for
Chase. Rooker-Feldman prohibits such review. See Exxon Mobil Corp., 544 U.S. at
284.
Ms. MacIntyre’s attempts to distance her claim from Rooker-Feldman are
unavailing. She contends she is seeking redress for injuries caused by the alleged
fraud and not by the state-court judgment itself. But her injuries are based entirely
on the court-ordered sale of her house. She has identified no injury independent of
the state-court orders, and she admitted that vacatur of the foreclosure judgment by
the state appellate courts “might obviate the need for this lawsuit,” R. Vol. 1 at 45.
Because “an element of [her] claim” is “that the state court wrongfully entered its
judgment,” Rooker-Feldman squarely applies. Campbell v. City of Spencer, 682 F.3d
1278, 1283 (10th Cir. 2012); cf Mayotte v. U.S. Bank Nat 7 Ass ’n, 880 F.3d 1169,
10

Appellate Case: 19-1290

Document: 010110409890

Date Filed: 99/90/2020

Page: 11

1176 (10th Cir. 2018) (holding Rooker-Feldman did not apply because the plaintiff
could “prove her claims without any reference to the state-court proceedings”); P.J.
ex rel. Jensen v. Wagner, 603 F.3d 1182, 1193-94 (10th Cir. 2010) (holding RookerFeldman did not apply because the claims did “not rest on any allegation concerning
the state-court proceedings or judgment” and “would be identical even if there were
no state-court orders” (internal quotation marks omitted)).4
Ms. MacIntyre also argues Rooker-Feldman does not apply because she is
seeking only monetary damages, not vacatur of the foreclosure judgment. But
seeking monetary damages without explicitly seeking to overturn or modify the
state-court judgment does not mean a claim can escape Rooker-Feldman's reach. To
the contrary, claims for monetary damages can implicate Rooker-Feldman. See
Wagner, 603 F.3d at 1193 (distinguishing claims for monetary damages from claims
for prospective injunctive and declaratory relief for purposes of Rooker-Feldman). In
seeking monetary damages based on “the irreversible loss of her primary residence,
combined with her subsequent displacement due to eviction,” R. Vol. 1 at 11,
Ms. MacIntyre’s “requested relief would necessarily undo the [Colorado] state

4 Ms. MacIntyre contends the district court improperly conflated RookerFeldman with preclusion. See Mayotte, 880 F.3d at 1175 (“[AJttempts merely to
relitigate an issue determined in a state case are properly analyzed under issue or
claim preclusion principles rather than Rooker-Feldman.” (internal quotation marks
omitted)). We perceive no such doctrinal confusion in the district court’s order. And
in any event, our review of the dismissal is de novo.
11

Appellate Case: 19-1290

Document: 010110409890

Date Filed: 09/90/2020

Page: 12

court’s judgment because it would place [her] back in the position [she] occupied
prior to the [foreclosure],” Mo’s Express, LLC v. Sopkin, 441 F.3d 1229, 1237
(10th Cir. 2006) (internal quotation marks omitted).
Ms. MacIntyre further contends a claim for money damages based on a
fraudulent state-court foreclosure judgment is exempt from Rooker-Feldman. But in
Tal v. Hogan, 453 F.3d 1244 (10th Cir. 2006), we rejected the plaintiffs similar
attempt to circumvent Rooker-Feldman by claiming the defendant “committed fraud
on appeal” in state court. Id. at 1255. We noted “new allegations of fraud might
create grounds for appeal, but that appeal should be brought in the state courts.” Id.
at 1256.
Ms. MacIntyre attempts to distinguish Tal by describing her claim as involving
“not new fraud” but rather the “same fraud that she argued before the state court.”
Aplt. Reply Br. (19-1290) at 10 (internal quotation marks omitted). But Tal not only
recognized that “new allegations of fraud” could come within the Rooker-Feldman
prohibition, but also allegations that the federal defendant “continue[d] to make false
claims.” Tal, 453 F.3d at 1256 (emphasis added). In particular, we observed that the
state appellate court “was confronted with and reviewed the same ‘fraud’ as the trial
court” and that “[i]ts holding is equally applicable to the ‘fraud’ alleged at the trial
court level... as it was to the ‘fraud’ allegedly perpetrated before its very eyes.” Id.
at 1257. The same is true with Ms. MacIntyre’s claim that Chase fraudulently
procured the foreclosure judgment and the denial of her motions for a stay. Her
12

Appellate Case: 19-1290

Document: 010110400890

Date Filed: 90/98/2020

Page: 13

attempt to distinguish Tal fails, and her “loss in state court precludes a second round
in federal court.” Id.

For Ms. MacIntyre to prevail on her fraud claim, the district court would have
had to review and reject the state-court judgment that she alleges Chase fraudulently
procured. Because Rooker-Feldman prohibits such review, the district court properly
dismissed her claim for lack of subject-matter jurisdiction.
3. Denial of Ms. MacIntyre’s Rule 59(e) Motion to Reconsider
Ms. MacIntyre contends the district court erred in denying her Rule 59(e)
motion to reconsider except to the extent the court modified the dismissal to be
without prejudice. We review this issue for an abuse of discretion. See Nelson v.
City ofAlbuquerque, 921 F.3d 925, 929 (10th Cir. 2019).
“Grounds warranting a motion to reconsider include (1) an intervening change
in the controlling law, (2) new evidence previously unavailable, and (3) the need to
correct clear error or prevent manifest injustice,” including “where the court has
misapprehended the facts, a party’s position, or the controlling law.” Servants of
Paraclete v. Does, 204 F.3d 1005, 1012 (10th Cir. 2000). In her brief, Ms. MacIntyre
lists sixteen issues she included in her Rule 59(e) motion.5 In denying the motion,

5 Except for the Rooker-Feldman issues we have addressed, Ms. MacIntyre has
not raised on appeal the other arguments in her motion to reconsider. See Platt v.
Winnebago Indus., Inc., 960 F.3d 1264, 1271 (10th Cir. 2020) (“[Fjailure to raise an
issue in an opening brief waives that issue.” (internal quotation marks omitted)).
13

Appellate Case: 19-1290

Document: 010110400890

Date Filed: ®0/®0/2O2O

Page: 14

the district court stated it “remain[ed] certain that the Rooker-Feldman doctrine
prohibited] it from considering this matter.” R. Vol. 1 at 167. Although
Ms. MacIntyre faults the court for not providing “any analysis whatsoever” and for
incorrectly stating it had “previously considered” arguments that she had not raised
until her motion. Aplt. Opening Br. (19-1290) at 33-34 (internal quotation marks
omitted), she focuses on the Rooker-Feldman determination. As discussed above, we
have considered the issue de novo and agree with the court’s assessment. Because
the court properly concluded it lacked jurisdiction, Ms. MacIntyre cannot show that
the court erred in denying her motion to reconsider.
4. Clarification regarding the dismissal
Finally, Ms. MacIntyre contends the district court erred in granting Chase’s
motion and clarifying that it had “granted Defendant’s motion to dismiss pursuant to
Fed. R. Civ. P. 12(b)(1),” R. Vol. 1 at 173. We review this issue for an abuse of
discretion. See Jones, Waldo, Holbrook & McDonough v. Cade, 510 F.3d 1277, 1278
(10th Cir. 2007).
As Ms. MacIntyre notes, the court’s clarification that the dismissal was based
on Chase’s Rule 12(b)(1) motion meant Chase was eligible for an award of attorney
fees under Colo. Rev. Stat. § 13-17-201. She alleges no particular error with the
clarification but claims she “will be fatally prejudiced by [the clarification] if this
Court is inclined to uphold the dismissal” on one of the alternative grounds raised by
Chase that she strategically chose not to address in district court. Aplt. Opening Br.
14

Appellate Case: 19-1290

Document: 010110409890

Date Filed: 90/98/2020

Page: 15

(19-1290) at 36. Because we agree with the district court’s Rooker-Feldman ruling
and do not address Chase’s alternative grounds for dismissal, Ms. MacIntyre’s
prejudice argument fails. The district court did not abuse its discretion in granting
Chase’s motion to clarify the basis for dismissal.
B. Appeal No. 20-1016
1. Order awarding attorney fees under Colo. Rev. Stat. § 13-17-201
In No. 20-1016, Ms. MacIntyre contends the district court erred in awarding
attorney fees under Colo. Rev. Stat. § 13-17-201. This statute applies when a federal
court, exercising diversity jurisdiction over a tort action under Colorado state law,
grants a defendant’s motion to dismiss under Rule 12(b) of the Federal Rules of Civil
Procedure. See Jones v. Denver Post Corp., 203 F.3d 748, 757 (10th Cir. 2000),
abrogated on other grounds by Nat’l R.R. Passenger Corp. v. Morgan, 536 U.S. 101
(2002). We review the district court’s factual findings for clear error and legal
conclusions de novo. See id. at 756.
Ms. MacIntyre initially opposed Chase’s motion for attorney fees on the
ground that, in a diversity action dismissed for lack of jurisdiction, 28 U.S.C. § 1919
preempted Colo. Rev. Stat. § 13-17-201. The federal statute provides: “Whenever
any action or suit is dismissed in any district court... for want of jurisdiction, such
court may order the payment of just costs.” 28 U.S.C. § 1919. The district court
concluded that although 28 U.S.C. § 1919 does not authorize an award of attorney

15

Appellate Case: 19-1290

Document: 010110400890

Date Filed: ®0/®8/2O2O

Page: 16

fees, it also does not prohibit a court from otherwise awarding fees. The court found
no conflict between the statutes and, thus, no preemption.
On appeal, Ms. MacIntyre reiterates her argument regarding preemption. But
her analysis is relegated entirely to a cursory footnote in her opening brief. We
therefore decline to consider the issue. See United States v. Hardman, 297 F.3d
1116, 1131 (10th Cir. 2002) (en banc) (“Arguments raised in a perfunctory manner,
such as in a footnote, are waived.” (emphasis added)).6
2. Denial of Ms. MacIntyre’s Rule 59(e) Motion to Reconsider
Ms. MacIntyre contests the denial of her Rule 59(e) motion to reconsider the
order awarding attorney fees. We review this issue for an abuse of discretion. See
Nelson, 921 F.3d at 929. And we review “jurisdictional arguments de novo in order
to ensure that the district court did not abuse its discretion by making a clear error of
judgment or exceeding the bounds of permissible choice in the circumstances.”
Devon Energy Prod. Co. v. Mosaic Potash Carlsbad, Inc., 693 F.3d 1195, 1201-02
(10th Cir. 2012) (alteration and internal quotation marks omitted).
In her motion to reconsider, Ms. MacIntyre argued the dismissal for lack of
subject-matter jurisdiction under Rooker-Feldman also meant that “diversity . . .

6 Ms. MacIntyre has cited no authority showing 28 U.S.C. § 1919 preempts a
state statute mandating attorney fees. She cites State v. Golden’s Concrete Co.,
962 P.2d 919, 926 (Colo. 1998), in which the Colorado Supreme Court held that
42 U.S.C. § 1988, which permits attorney fees for a prevailing party in a 42 U.S.C.
§ 1983 action, preempts Colo. Rev. Stat. § 13-17-201.
16

Appellate Case: 19-1290

Document: 010110409890

Date Filed: ®0/®0/2O2O

Page: 17

jurisdiction never attached” and that the court lacked subject-matter jurisdiction to
award attorney fees under state law. R. Vol. 2 (20-1016) at 73. The court found the
argument was untimely raised and without merit. Ms. MacIntyre contends it was not
untimely because subject-matter jurisdiction can be raised at any time. In any event,
we agree with the court’s conclusion that it had jurisdiction to award fees.
“It is well established that a federal court may consider collateral issues after
an action is no longer pending.” Cooter & Gell v. Hartmarx Corp., 496 U.S. 384,
395 (1990); see also Willy v. Coastal Corp., 503 U.S. 131, 137 (1992) (upholding
Rule 11 sanctions after “[a] final determination of lack of subject-matter jurisdiction”
because “such a determination does not automatically wipe out all proceedings had in
the district court at a time when the district court operated under the misapprehension
that it had jurisdiction”). We therefore have held that “a district court may still
award attorney’s fees after dismissing the underlying action for lack of subject-matter
jurisdiction . . . because a claim for attorney’s fees gives rise to issues separate and
distinct from the merits of the original cause of action.” D.A. Osguthorpe Family
P’ship v. ASC Utah, Inc., 705 F.3d 1223, 1236 (10th Cir. 2013) (internal citation
omitted). This is equally true when a state statute forms the basis for an award of
attorney fees. See Lorillard Tobacco Co. v. Engida, 611 F.3d 1209, 1217 (10th Cir.
2010) (“[A] district court need not have subject matter jurisdiction to award
attorney’s fees pursuant to [Colo. Rev. Stat. §] 13-17-102.”).

17

Appellate Case: 19-1290

Document: 010110409890

Date Filed: 90/90/2020

Page: 18

Ms. MacIntyre contends that her action was only a “would-be diversity case”
and that the dismissal under Rooker-Feldman meant the district court “was never for
a minute ‘sitting in diversity’” such that it had “access to a state fee-shifting statute.”
Aplt. Reply. Br. (20-1016) at 5. But she offers no applicable authority for this novel
argument. The fact that the court lacked jurisdiction over her sole claim for relief
does not mean it lacked jurisdiction to award attorney fees after the dismissal. The
district court did not abuse its discretion in denying the Rule 59(e) motion.
III. CONCLUSION
We (1) affirm the district court’s judgment, (2) deny Ms. MacIntyre’s motion
to strike Chase’s brief in No. 19-1290, and (3) grant Chase’s motion for leave to file
a response to Ms. MacIntyre’s motion to strike and her motion for leave to file a
reply to Chase’s response.
Entered for the Court

Scott M. Matheson, Jr.
Circuit Judge

18

Appellate Case: 19-1290

Document: 010110425054

Date Filed: 10/19/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeal:
Tenth Circuit

FOR THE TENTH CIRCUIT

October 19, 2020
Christopher M. Wolpert
Clerk of Court

HOLLY MACINTYRE,
Plaintiff - Appellant,
v.
JP MORGAN CHASE BANK, N.A.,

Nos. 19-1290 & 20-1016
(D.C.No. 1:19-CV-00172-DDD-NYW)
(D. Colo.)

Defendant - Appellee.

ORDER

Before BRISCOE, MATHESON, and CARSON, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

—ZJ -

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Daniel D. Domenico
Civil Action No. l:19-cv-00172-DDD-NYW
HOLLY MACINTYRE,
Plaintiff,
v.
JP MORGAN CHASE BANK, N.A.
Defendant.

ORDER OF DISMISSAL

This case alleges that Defendant JP Morgan Chase Bank, N.A. (Chase)
falsified signatures and indorsements on a promissory note, thereby permitting it to
fraudulently obtain a judgment in Colorado state court authorizing a foreclosure
sale of Ms. MacIntyre’s property. Chase moves to dismiss for lack of subject-matter
jurisdiction and for failure to state a claim. (Doc. 12.) In addition to responding, Ms.
MacIntyre moves to strike Chase’s motion because it was filed before service of the
Complaint. (Doc. 20.) Because this case seeks to reopen a matter that was decided
by a final decision of a Colorado state court, the Court has no jurisdiction to resolve
it. Therefore, the case is DISMISSED WITH PREJUDICE.

1

8

-mZJ -

I.

—

BACKGROUND
Unless specifically noted, the following allegations are drawn from the

Complaint (Doc. #1) and are taken as true. See Wilson u. Montano, 715 F.3d 847,
850 n.l (10th Cir. 2013).
Holly MacIntyre was the owner of real residential property in Jefferson
County, Colorado. On January 10, 2003, she executed a $100,000 promissory note
made payable to Broker One Lending and secured by a deed of trust on the
property. On December 16, 2014, Chase—claiming to be the holder of the note—
sought a judgment permitting it to conduct a foreclosure sale of the property.
During the trial in state court, Chase knowingly produced a different, “forged and
falsified” note bearing a “simulated handwritten indorsement apparently made by
Broker One Lending to Flagstar Bank” and “simulated ink-stamped indorsement in
blank, apparently made by Flagstar Bank, but not actually made by Flagstar
Bank.” At the state trial, “Chase disputed every allegation that MacIntyre made
there about the falsification of the false notes and the signatures.” After weighing
the evidence, the “state court concluded that Chase is the ‘holder’ of the purported
‘note’ and issued a judgment of judicial foreclosure against MacIntyre.”
Ms. MacIntyre appealed to the Colorado Court of Appeals and filed three
motions to stay execution of the foreclosure judgment. Chase’s attorneys obtained
denials of all three motions to stay by “using fraudulent misrepresentations of fact
and law.” On January 21, 2016, the property was sold at a sheriffs sale. On April
28, 2016, the Colorado Court of Appeals affirmed the foreclosure judgment. Ms.

2

—ZJ -

“

MacIntyre sought certiorari review in the Colorado Supreme Court, but she later
filed a “suggestion of mootness and motion to dismiss as moot,” and the high court
dismissed on mootness grounds on January 3, 2017.
On January 18, 2019, proceeding pro se, Ms. MacIntyre filed this case
alleging that “Chase’s fraud in the foreclosure proceeding has caused [her]
extraordinary financial damage by the irreversible loss of her primary residence. . . .
Chase’s foreclosure fraud was solidified by the fraudulent tactics it used in
thwarting the indispensable stay she needed to have any possibility of reversing the
foreclosure judgment on appeal.” In the Complaint, she argued that the “mootness
of her appeals” entitles her to have her foreclosure judgment vacated—a theory she
alleged she would test with forthcoming appellate filings.
Counsel for Chase appeared on February 7 and waived service on behalf of
Chase. On February 28, Chase filed a motion to dismiss for lack of subject-matter
jurisdiction under either the Rooker-Feldman or Younger doctrines. Chase further
submits that the Complaint fails to state a claim because Ms. MacIntyre is estopped
from relitigating certain issues, she filed more than a year beyond the applicable
statute of limitations period, and she is unable to plead the necessary fraud element
of reliance.
On March 28, Ms. MacIntyre filed a “motion to vacate judgment as moot” in
the Colorado Court of Appeals. (Doc. 19-1.) On April 11, the Court of Appeals
ordered: “Appellant’s motion to vacate the judgment as moot is denied. Case was

3

■*o ~

mandated on January 4, 2017. No further motion to vacate will be considered.”
(Doc. 22-1, at 2.)
On April 5, Ms. MacIntyre served Chase with the Complaint. On April 9, she
moved to strike the motion to dismiss as premature solely because it was filed
before service of the Complaint. She further responded to the motion to dismiss by
singularly addressing Chase’s invocation of collateral estoppel. The Court considers
the parties’ motions together.
II.

ANALYSIS
Courts must hold pro se litigants’ pleadings “to less stringent standards than

formal pleadings drafted by lawyers.” Haines u. Kerner, 404 U.S. 519, 520 (1972).
Because Ms. MacIntyre is pro se, the Court reads the Complaint broadly for facts
that could be sufficient to state a valid claim, Hall u. Bellmon, 935 F.2d 1106, 1110
& n.3 (10th Cir. 1991), or which might “evinceQ a basis for the court’s subjectmatter jurisdiction.” Kucera v. Cent. Intelligence Agency, 754 F. App’x 735, 736
(10th Cir. 2018). At the same time, where the Court’s subject-matter jurisdiction is
in question, the Court is not constrained to accept a complaint’s allegations as true.
Holt v. United States, 46 F.3d 1000, 1002-03 (10th Cir. 1995). And here, Ms.
MacIntyre supplied the Court with her unsuccessful post-Complaint appellate
filings, which may bear on the jurisdictional question.
The Court’s principle concern is whether it has the power to hear this case.
Federal courts “have an independent obligation to determine whether subjectmatter jurisdiction exists, even in the absence of a challenge from any party,” and

4

—ZJ -

~

thus a court may sua sponte raise the question of whether there is subject matter
jurisdiction “at any stage in the litigation.” Arbaugh v.Y&H Corp., 546 U.S. 500,
501 (2006). Therefore, if Chase is correct that the Court does not have jurisdiction,
whether its motion to dismiss should be stricken is immaterial considering the
Court’s ongoing obligation to evaluate its own jurisdiction. The Rooker-Feldman and
Younger doctrines raised by Chase both implicate the Court’s subject-matter
jurisdiction. See Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 281
(2005); Chapman v. Oklahoma, 472 F.3d 747, 748 (10th Cir. 2006).
Rooker-Feldman takes its name from the Supreme Court’s decisions
in Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923), and District of Columbia Court
of Appeals v. Feldman, 460 U.S. 462 (1983). In Rooker, plaintiffs previously defeated
in state court filed suit in a federal district court alleging that the adverse state
court judgment was unconstitutional and asking that it be declared “null and
void.” 263 U.S. at 414-15. The Supreme Court stated that even if the state court
was wrong, “that did not make the judgment void, but merely left it open to reversal
or modification in an appropriate and timely appellate proceeding,” and such was
not the province of the federal district courts. Id. at 415-16. In Feldman, the
Supreme Court similarly concluded that a federal district court lacked subjectmatter jurisdiction over what would have been essentially a review of allegations
“inextricably intertwined” with judicial determinations made by the District of
Columbia’s highest court. 460 U.S. at 485-86.

5

—ZJ -

Citing the habit of district courts to expand the scope of the Rooker and
Feldman decisions, the Supreme Court in Exxon considered whether the doctrine
precluded a federal court from hearing a case brought only weeks after a parallel
case was filed in state court and well before any judgment in the state court. 544
U.S. at 281. There, the Court held that the “Rooker-Feldman doctrine is confined to
cases of the kind from which it acquired its name: cases brought by state-court
losers complaining of injuries caused by state-court judgments rendered before the
federal district court proceedings commenced and inviting district court review and
rejection of those judgments.” Exxon Mobil Corp., 544 U.S. at 281. Thus, Exxon
clarified that “Rooker-Feldman is not triggered simply by the entry of judgment in
state court” but only “after state proceedings have ended.” Id. at 292. The Tenth
Circuit has read Exxon to mean that a state court action is not final for RookerFeldman purposes until a party’s final chance to appeal has passed. Guttman v.
Khalsa, 446 F.3d 1027, 1031 (10th Cir. 2006) (“In this case, Guttman filed his
federal suit while his petition for certiorari to the New Mexico Supreme Court was
pending. His state suit was not final. As such, the Rooker-Feldman doctrine does
not bar his federal suit and the district court does have subject matter jurisdiction
to hear the case.”); Chapman v. Oklahoma, 472 F.3d 747, 749 (10th Cir. 2006) (“Mr.
Chapman’s state court proceedings have not reached the end of the state courts’
appeal process, and the district court therefore erred by dismissing his complaint
under Rooker-Feldman!’).

6

—Z) -

Even when appeals remain in a state case, however, “[c]omity or abstention
doctrines may, in various circumstances, permit or require the federal court to stay
or dismiss the federal action in favor of the state-court litigation.” Exxon Mobil
Corp., 544 U.S. at 292. One such abstention doctrine is the product of Younger v.
Harris, 401 U.S. 37 (1971), which provides principles for determining when it is
appropriate for a federal court to abstain for interfering with a state judicial
proceeding. Seneca-Cayuga Tribe of Okla. v. State of Okl. ex rel. Thompson, 874 F.2d
709, 711 (10th Cir. 1989). Abstention is appropriate when (1) there is an ongoing
state criminal, civil, or administrative proceeding; (2) the state court provides an
adequate forum to hear the claims raised in the federal complaint; and (3) the state
proceedings involve important state interests, matters which traditionally look to
state law for their resolution, or implicate separately articulated state policies.
Chapman, 472 F.3d at 749.
Finally, when parallel cases are waged in state and federal court, “disposition
of the federal action, once the state-court adjudication is complete, would be
governed by preclusion law.” Exxon Mobil Corp., 544 U.S. at 293. Most relevant
here, the principle of collateral estoppel prevents re-litigation of issues that have
been previously decided on the merits against a party that had a full and fair
opportunity to litigate them in the prior proceeding. See Harrison v. Eddy Potash,
Inc., 248 F.3d 1014, 1022 (10th Cir. 2001). However, “[p]reclusion, of course, is not a
jurisdictional matter. ... In parallel litigation, a federal court may be bound to
recognize the claim- and issue-preclusive effects of a state-court judgment, but

7

federal jurisdiction over an action does not terminate automatically on the entry of
judgment in the state court.” Id. Therefore, to dismiss under the doctrine of
collateral estoppel, the Court must be confident of its subject-matter jurisdiction.
Here, the face of the Complaint makes clear that Ms. MacIntyre’s case cannot
continue in federal court. She argued the very same fraud she complains of here
before the state court, which considered it, rejected it, and entered judgment
affirming the validity of the note and permitting Chase to execute upon it. Ms.
MacIntyre appealed, and the Court of Appeals ultimately affirmed and issued a
mandate on January 4, 2017. The Colorado Supreme Court, at Ms. MacIntyre’s
request, dismissed her petition for review and the lower state court decision became
final. Even so, in the January 2019 Complaint, Ms. MacIntyre pleaded her thenfuture intent to advance another state appeal, and the documents subsequently
filed in this case show that she did, in fact, do so (though she was ultimately
unsuccessful). Her principle opposition to Chase’s motion to dismiss rests on the
grounds that this second appeal might result in vacatur of the state court judgment.
So, the question becomes whether this case is best viewed as inviting appellate
review of a final state court decision, requiring abstention from an ongoing civil
proceeding, or being sufficiently parallel (at least upon filing) to the state court
matter such that any decision that became final in state court could only have
preclusive effect through estoppel.
The Court has a responsibility to read the Complaint broadly and has made
every effort to reconcile Ms. MacIntyre’s purported insistence on a continued right

8

—c/ - -

to appeal with the deadlines governing such processes. But the most recent decision
of the Colorado Court of Appeals—entered April 11, 2019 and which disposed of this
second appeal—is unequivocal that her “[c]ase was mandated on January 4, 2017.
No further motion to vacate will be considered.” Even though the Court must afford
pro se parties the benefits of certain doubts, it cannot go so far as to imply a right to
further appeal more than two years after a final mandate has been issued and
certainly cannot comment on the propriety of decisions that were finally litigated in
state court. Whatever Ms. MacIntyre’s most recent filings in state court might be
called, they are not “an appropriate and timely appellate proceeding” — that is
something she had already undertaken, though without success. See Rooker, 263
U.S. at 415—16. Had some legitimate ongoing appeal been pending at the time she
filed the Complaint, the Court might have had occasion to address abstention under
Younger. But under these circumstances, where the Complaint asks the Court to
effectively review state court proceedings after the timely and appropriate appellate
process in state court has been completed, Rooker-Feldman holds that the Court has
no jurisdiction over the matter. And because it lacks subject-matter jurisdiction, the
Court cannot address the merits of any part of this case.

9

—z/ - —

III.

CONCLUSION
Based on the foregoing, it is ORDERED and ADJUDGED that this case is

DISMISSED WITH PREJUDICE for lack of subject-matter jurisdiction. All other
pending motions are DENIED AS MOOT. The Clerk is instructed to close this
case.

Dated: June 28, 2019
BY THE COURT:

/s/Daniel D. Domenico
Hon. Daniel D. Domenico
United States District Judge

10

—ZJ -

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Daniel D. Domenico
Civil Action No. l:19-cv-00172-DDD-NYW
HOLLY MACINTYRE,
Plaintiff,
v.
JP MORGAN CHASE BANK, N.A.,
Defendant.

ORDER GRANTING IN PART
MOTION FOR ATTORNEYS’ FEES

This matter is before the Court on Defendant’s Motion for Attor­
ney Fees (Doc. 41), filed August 8, 2019. On September 5, 2019, Plaintiff
filed a response in opposition to the motion, and on September 26, 2019,
Defendant filed its reply. (Docs. 50, 56.)1 For the reasons stated below,
the motion is GRANTED IN PART.

1
On October 8, 2019, Plaintiff filed a “Surreply” styled as a “Motion
to file a Surresponse to [Defendant’s] Reply.” (Doc. 57.) In it, she opposes
Defendant’s reply, which, because of the reply’s case citations and argu­
ment against the position she took in her response, she sees as “a veri­
table new motion” by Defendant. (Id. at 7.) The Court does not view
Chase’s reply as a new motion. True, parties should not raise “entirely
new but foreseeable points relevant to a motion [ ] in a reply,” Tetra
Techs., Inc. v. Harter, 823 F. Supp. 1116, 1120 (S.D.N.Y. 1993) (cited by
Plaintiff), but Defendant was obligated to address certain legal princi­
ples, including two entirely new theories, raised by Plaintiff. Insofar as
Document 57 is itself a motion, it is GRANTED to the extent that the
Court has considered the arguments therein. No further briefing on the
motion for attorneys’ fees is necessary.
- 1-

C

—Zf - —

BACKGROUND
Plaintiff Holly MacIntyre was the owner of real residential prop­
erty in Jefferson County, Colorado. Defendant JP Morgan Chase Bank,
N.A. (“Chase”)—claiming to be the holder of a promissory note secured
by the property—sought a judgment permitting it to conduct a foreclo­
sure sale of the property. In this case, Ms. MacIntyre alleged that during
the trial in state court, Chase produced a forged note bearing signatures
not made by the parties to which they were attributed—so as to fraudu­
lently cause the sale. Chase disputed the allegations, and, after weigh­
ing the evidence, the state court concluded that Chase was the holder of
the note and issued a judgment of judicial foreclosure against Ms. Mac­
Intyre. The Colorado Court of Appeals affirmed. Eventually, the Colo­
rado Supreme Court dismissed her appeal as moot on Ms. MacIntyre’s
own motion after the property was sold.
On January 18, 2019, proceeding pro se, Ms. MacIntyre filed this
case alleging that “Chase’s fraud in the foreclosure proceeding has
caused [her] extraordinary financial damage.” Chase filed a motion to
dismiss for lack of subject matter jurisdiction and for failure to state a
claim. Ms. MacIntyre filed a motion to vacate the state court judgment
in the Court of Appeals, which ordered: “Appellant’s motion to vacate
the judgment as moot is denied. Case was mandated on January 4, 2017.
No further motion to vacate will be considered.” (Doc. 22-1, at 2.) On
June 28, this Court granted Chase’s motion to dismiss this case for lack
of subject matter jurisdiction under the Rooker-Feldman doctrine, which
prevents federal court review of state court proceedings. (Docs. 30, 35.).
On August 8, Chase filed this motion for attorneys’ fees under Colo. Rev.
Stat. § 13-17-201 (“Section 201”).

-2-

—ZJ -

ATTORNEYS’ FEES
Plaintiff denies that Section 201 is applicable to this action. She
argues that 28 U.S.C. § 1919 (“Section 1919”), which permits courts to
order payment of just costs (but not attorneys’ fees) after a jurisdictional
dismissal, instead governs. She also argues that Colo. Rev. Stat. § 1317-102(6) (“Section 102”), limiting when fees can be collected from a pro
se party, prohibits Chase from collecting attorneys’ fees from her. She
has not contested the reasonableness of the fees Chase requests.
The Court is somewhat sympathetic to Ms. MacIntyre, though her
current predicament is of her own making. In a prior proceeding in state
court, Chase foreclosed upon her house. Since then, Ms. MacIntyre has
traversed through different cases and courts seeking to undo that out­
come. Such was her purpose here. But despite Chase’s warnings to her,
through conferral and motion practice, of the inefficacy of her claims in
this Court, she continued. As Chase maintained, the Court had no au­
thority, under these circumstances, to undo the state proceeding or its
outcome. And because, as explained below, Ms. MacIntyre’s legal con­
tentions in response to the present motion are meritless, this case, ra­
ther than help her cause, will cause her additional financial hardship.
A. Inapplicability of Section 1919
Ms. MacIntyre calls Chase’s invocation of Section 201 a “distrac­
tion.” She believes Section 1919 controls and preempts Section 201. She
even cites Colorado ethical rules she finds implicated by Chase’s failure
to disclose Section 1919. See Colo. R. Prof. C. 3.3(a)(2) (“A lawyer shall
not knowingly . . . fail to disclose to the tribunal legal authority in the
controlling jurisdiction known to the lawyer to be directly adverse to the
position of the client and not disclosed by opposing counsel.”). She notes
to the Court that there “is not a single reported case in the history of
-3-

-

—ZJ ~

American jurisprudence in which attorney’s fees have been awarded un­
der § 1919.” Castillo Grand, LLC v. Sheraton Operating Corp., 719 F.3d
120, 124 (2d Cir. 2013). She believes, therefore, that she cannot be liable
for attorneys’ fees here.
Ms. MacIntyre is mistaken. Section 1919 has nothing to do with
the instant motion and does not preempt Section 201. Section 1919
states: “Whenever any action or suit is dismissed in any district court
. . . for want of jurisdiction, such court may order the payment of just
costs.” A plain reading of the statute, as Chase notes, reveals it gives the
Court authority to order payment of costs. It does not prohibit the Court
from ordering payment of reasonable attorneys’ fees. Attorneys’ fees are
not mentioned in Section 1919, so the Court is not surprised that no
other court has used it to award them. Attorneys’ fees and costs are dis­
crete forms of litigation expense, separately awardable under certain
circumstances. See U.S. ex rel. Grynberg v. Praxair, Inc., 389 F.3d 1038,
1056-57 (10th Cir. 2004) (discussing separate applicability of fee- and
cost-shifting statutes permitting awards of litigation expenses in suits
where, like here, federal courts are not authorized to decide the merits).
Section 1919 is about costs; the motion in question here is about attor­
neys’ fees.
B. Applicability of Section 201
In this case, Ms. MacIntyre brought a single tort claim under Col­
orado law. She alleged that “Chase’s fraud in the foreclosure proceeding
has caused [her] extraordinary financial damage by the irreversible loss
of her primary residence, combined with her subsequent displacement
due to eviction.” (Doc. 1 f 36.) Chase moves for mandatory attorneys’
fees under Section 201, which states in relevant part:

-4-

—ZJ -

In all actions brought as a result of a death or an injury to
person or property occasioned by the tort of any other per­
son, where any such action is dismissed on motion of the
defendant prior to trial under rule 12(b) of the Colorado
rules of civil procedure, such defendant shall have judg­
ment for his reasonable attorney fees in defending the ac­
tion.
The Court dismissed this action under Fed. R. Civ. P. 12(b), upon which
Colorado Rule 12(b) is modeled. See Warne v. Hall, 373 P.3d 588, 593
(Colo. 2016) (“It cannot seriously be disputed that the Colorado Rules of
Civil Procedure were modeled almost entirely after the corresponding
federal rules.”). Ms. MacIntyre argues that Section 201 doesn’t apply to
this case, calling significant Chase’s lack of citation to “a single (1) pub­
lished case from the Tenth Circuit that treats that particular statute as
substantive law in a (2) diversity case that was dismissed for (3) lack of
subject matter jurisdiction.” (Doc. 50, at 7.)
But there are cases, published and unpublished, in the Tenth Cir­
cuit and this Court, satisfying each of those categories. See Jones v. Den­
ver Post Corp., 203 F.3d 748, 757 (10th Cir. 2000) (“In the Tenth Circuit,
attorney fee statutes [including Section 201] are considered substantive
for purposes of a diversity action.”); Infant Swimming Research, Inc. v.
Faegre & Benson, LLP, 335 F. App’x 707, 715 (10th Cir. 2009) (holding
Section 201 applicable to a dismissal for lack of subject matter jurisdic­
tion under federal rules); Checkley v. Allied Prop. & Cas. Ins. Co., 635 F.
App’x 553, 559 (10th Cir. 2016) (same); Shrader v. Beann, 503 F. App’x
650, 654-55 (10th Cir. 2012) (“Under Colorado law, a Colorado court
must award a defendant in a tort action who prevails on a Rule 12(b)
motion reasonable attorney fees in defending that action. The statute
also applies to a dismissal under Fed. R. Civ. P. 12(b) of a tort claim
brought under Colorado law.” (citations omitted)); Dorsey on behalf of
J.D. v. Pueblo Sch. Dist. 60, 215 F. Supp. 3d 1092, 1093 (D. Colo. 2016)
-5-

—

—Zf ~

(“This provision also applies to Colorado tort claims pending in federal
court that are dismissed pursuant to Federal Rule of Civil Procedure
12(b).”). It is beyond legitimate dispute that binding precedent holds
that Section 201 is substantive law in diversity cases and is applicable
to a dismissal for lack of subject matter jurisdiction under Fed. R. Civ.
P. 12(b)(1).
C. Inapplicability of Section 102
Ms. MacIntyre further suggests that, because she is pro se, attor­
neys’ fees may not be assessed against her unless the Court finds that
she knew or reasonably should have known that her action or defense,
or any part thereof, was substantially frivolous, substantially ground­
less, or substantially vexatious. See Colo. Rev. Stat. § 13-17-102(6). Un­
like Section 201, which is substantive, this district uniformly considers
Section 102 to be “merely a procedural statute regarding sanctions based
on conduct in the litigation and not substantive law under Erie.”
Dowling v. Gen. Motors LLC, No. 15-CV-00445-KLM, 2019 WL 4415650,
at *3 (D. Colo. Sept. 16, 2019) (collecting cases); Hack Co. u. In-Situ, Inc.,
No. 13-CV-02201-CBS, 2016 WL 9725765, at *11 (D. Colo. Nov. 22, 2016)
(“Colorado courts provide clarity, characterizing § 13-17-102 as a sanc­
tion, rather than a substantive right[,]” and preempted by Fed. R. Civ.
P. 11) (citation omitted); see also Scottsdale Ins. Co. v. Tolliver, 636 F.3d
1273, 1279 (10th Cir. 2011) (“Substantive fees are those which are ‘tied
to the outcome of the litigation,’ whereas procedural fees are generally
based on a litigant’s ‘bad faith conduct in litigation.’” (quoting Chambers
v. NASCO, Inc., 501 U.S. 32, 52-53 (1991)).
Section 102 is therefore inapplicable in federal court, and there is
no suggestion that it limits Section 201’s operation against pro se par­
ties. Indeed, even if Section 102 were applicable, Colorado courts have
-6-

—CJ -

held that the more specific, later-enacted requirements of Section 201
supersede the earlier, more general provisions of Section 102. See, e.g.,
Houdek v. Mobil Oil Corp., 879 P.2d 417 (Colo. App. 1994), Hewitt v.
Rice, 119 P.3d 541, 546 (Colo. App. 2004), aff’d, 154 P.3d 408 (Colo.
2007) (both “that § 13-17—201 applies and controls over § 13—17—
102(7)”). See also Bath v. Am. Express Co., No. 19-CV-00606-RM-NYW,
2019 WL 2607020, at *9 (D. Colo. May 31, 2019) (discussing propriety of
attorneys’ fees under Section 201 against a pro se plaintiff but not yet
addressing issue because no affidavit supporting fee request had been
filed), report and recommendation adopted sub nom. Bath u. Am. Ex­
press Nat’l Bank, No. l:19-CV-00606-RM-NYW, 2019 WL 2602505 (D.
Colo. June 25, 2019).
This reasoning comports with the purposes behind these statutes,
only one of which addresses circumstances raised by the present motion.
Section 201 “was enacted to discourage unnecessary litigation of tort
claims,” Smith v. Town of Snowmass Vill., 919 P.2d 868 (Colo. App.
1996), but Section 102 is in place to punish “conduct that is arbitrary,
abusive, stubbornly litigious, or disrespectful of the truth.” City of Black
Hawk v. Ficke, 215 P.3d 1129, 1132 (Colo. App. 2008). Chase does not
seek fees to punish such conduct; it seeks fees for obtaining dismissal of
an unnecessary tort claim, which is governed by Section 201.
D. Reasonable Attorneys’ Fees
The only remaining task is to determine the reasonable attorneys’
fees to which Chase is entitled. Chase submitted an affidavit by Jeffrey
M. Lippa who, together with Ronald J. Tomassi, Jr. and Lindsay Aherne,
billed fees on this case. (Doc. 41-3.) Attached to the affidavit is a billing
report containing detailed descriptions of the work these attorneys per­
formed. Chase seeks $34,596.10, reflecting 130.2 hours at rates ranging
-7-

—Zf -

from $174 to $341 per hour. Ms. MacIntyre, who only argued the issues
set forth above, does not rebut the amount requested. The Court would
normally interpret a litigant’s silence on this issue as a tacit admission
of the reasonableness of the fees sought. See, e.g., Torres v. Am. Family
Mut. Ins. Co., 606 F. Supp. 2d 1286, 1292 (D. Colo. 2009). But because
Ms. MacIntyre is unrepresented, a closer look is warranted.
“The most useful starting point for determining the amount of a
reasonable fee is the number of hours reasonably expended on the liti­
gation multiplied by a reasonable hourly rate.” Hensley v. Eckerhart,
461 U.S. 424, 433 (1983); see also Shrader, 503 F. App’x at 654 (approv­
ing of the district court’s use of this methodology in a Section 201 case).
In other words, “[t]o determine the reasonableness of a fee request, a
court must begin by calculating the so-called lodestar amount of a fee,
and a claimant is entitled to the presumption that this lodestar amount
reflects a reasonable fee.” Robinson v. City of Edmond, 160 F.3d 1275,
1281 (10th Cir. 1998) (internal quotations and citations omitted). “The
lodestar calculation is the product of the number of attorney hours rea­
sonably expended and a reasonable hourly rate.” Id. (internal quotation
omitted).
1. Reasonable Hourly Rate
A court must look to what the evidence shows the market com­
mands for analogous litigation. Case v. Unified School District No. 233,
157 F.3d 1243, 1255 (10th Cir. 1998). The local market rate is usually
the state or city in which counsel practices. Ellis u. Uniu. of Kan. Med.
Ctr., 163 F.3d 1186, 1203 (10th Cir. 1999) (looking at “the prevailing
market rate in the relevant community”); Case, 157 F.3d at 1256 (look­
ing at fees charged by lawyers in the area in which the litigation occurs).
A “district judge may turn to her own knowledge of prevailing market
-8-

—c; “

rates as well as other indicia of a reasonable market rate.”
Metz v. Merrill Lynch, Pierce, Fenner & Smith, Inc., 39 F.3d 1482, 1493
(10th Cir. 1994). The court is also entitled to consider the quality of coun­
sel’s performance in setting the fee. Ellis, 163 F.3d at 1203.
Work was performed on this case by three attorneys at Greenberg
Traurig, LLP. Mr. Lippa has been licensed to practice law since 2005, is
a shareholder at the firm, and billed at $366 per hour. Mr. Tomassi, Jr.
has been licensed since 2006, is also a shareholder, and billed at $341
per hour. Ms. Aherne has been licensed since 2015, is an associate, and
billed from $174 to $260 per hour. Based on the Court’s experience in
private and public practice in the Denver area, these rates are reasona­
ble, considering these lawyers’ experience, the subject matter of the
case, and quality of work they performed.
2. Reasonable Number of Hours
In determining the reasonableness of the hours expended, a court
considers several factors, including: (1) whether the amount of time
spent on a particular task appears reasonable in light of the complexity
of the case, the strategies pursued, and the responses necessitated by an
opponent’s maneuvering; (2) whether the amount of time spent is rea­
sonable in relation to counsel’s experience; and (3) whether the billing
entries are sufficiently detailed, showing how much time was allotted to
specific tasks. See Ramos v. Lamm, 713 F.2d 546, 553-54 (10th Cir.
1983). If the court has adequate time records before it, “it must then
ensure that the winning attorneys have exercised ‘billing judgment.’”
Case, 157 F.3d at 1250. In other words, the district court should exclude
from this initial fee calculation hours that were not “reasonably ex­
pended.” Hensley, 461 U.S. at 434 (internal quotation omitted).

-9-

~

—ZJ ~

Chase seeks attorneys’ fees for 130.2 hours of work from January
18 to June 30, 2019. During this time, the events of this case were lim­
ited. On January 18, Ms. MacIntyre filed the Complaint. On February
28, Chase moved to dismiss and, subsequently, replied. (Docs. 12, 24.)
On March 19, the parties had a ten-minute status conference with Mag­
istrate Judge Wang. (Doc. 18.) On April 30, Chase filed a response to Ms.
MacIntyre’s motion to strike its motion to dismiss. (Doc. 25.) Chase was
thus responsible for three substantive filings and one short conference.
By the Court’s rough calculation, upon review of the billing records,
Chase’s attorneys’ time was generally divided between research and
drafting substantive filings (over ninety-five hours), internal strategy
and preparation sessions (about fifteen hours), conferring with Ms. Mac­
Intyre and Chase (under ten hours), and other tasks.
The Court finds some of this time unreasonably spent. The
ninety-five hours of substantive work is somewhat excessive, given the
general lack of complexity and brevity of the case. The attorneys also
spent at least one hour unnecessarily checking the docket for the ab­
sence of entries, two-and-a-half hours on three simple notices of appear­
ance, and two hours on post-judgment review unneeded to secure the
same. They also spent nearly five hours on an unconsummated settle­
ment. All things considered, instead of serving as a “green-eyeshade ac­
countant,” Fox v. Vice, 563 U.S. 826, 838 (2011), further scouring the
individual billing entries for evidence of waste or fat, the Court finds
that a general reduction of 25% of the requested hours is appropriate.
Because Chase has not supplied separate totals reflecting the number
of hours worked by each attorney, the Court applies this reduction to the
final dollar amount requested.

- 10-

—CJ -

CONCLUSION
Based on the foregoing, it is ORDERED that Ms. MacIntyre’s
motion to file a surresponse (Doc. 57) is GRANTED, and Chase’s Motion
for Attorney Fees (Doc. 41) is GRANTED IN PART. Chase is awarded
attorneys’ fees in the reduced amount of $25,947.08. It is further
ORDERED that the Amended Judgment (Doc. 36) shall be again
amended to reflect the award of attorneys’ fees.

DATED: October 10, 2019.

BY THE COURT:

DanielD. Domenico
United States District Judge

- 11 -

—

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Daniel D. Domenico
Civil Action No. l:19-cv-00172-DDD-NYW
HOLLY MACINTYRE
Plaintiff,
v.
JP MORGAN CHASE BANK, N.A.
Defendant.

ORDER DENYING RECONSIDERATION

This matter is before the Court on Ms. MacIntyre’s motion,
brought pursuant to Federal Rule of Civil Procedure 59(e), for reconsid­
eration of its order granting Chase attorneys’ fees under Colo. Rev. Stat.
§ 13-17-201, which she filed October 24, 2019. (Doc. 60.) On November
14, 2019, Chase filed a response in opposition to the motion, and on No­
vember 29, 2019, Ms. MacIntyre replied. (Docs. 61, 62.) The motion is
without merit and is DENIED.
The Court will briefly outline the relevant background. Plaintiff
Holly MacIntyre was the owner of real residential property in Jefferson
County, Colorado. Defendant JP Morgan Chase Bank, N.A. (“Chase”)—
claiming to be the holder of a promissory note secured by the property—
sought a judgment permitting it to conduct a foreclosure sale of the prop­
erty. In this case, Ms. MacIntyre alleged that during the trial in state
court, Chase produced a forged note bearing signatures not made by the
parties to which they were attributed—so as to fraudulently cause the
sale. Chase disputed the allegations, and, after weighing the evidence,
- 1-

D

the state court concluded that Chase was the holder of the note and is­
sued a judgment of judicial foreclosure against Ms. MacIntyre. On Jan­
uary 18, 2019, proceeding pro se, Ms. MacIntyre filed this case alleging
that “Chase’s fraud in the foreclosure proceeding has caused [her] ex­
traordinary financial damage.”
On June 28, this Court granted Chase’s motion to dismiss for lack
of subject matter jurisdiction under the Rooker-Feldman doctrine, which
prevents federal court review of state court proceedings. (Docs. 30, 35.)
On August 8, Chase filed this motion for attorneys’ fees under Colo. Rev.
Stat. § 13-17-201 (“Section 201”). Section 201 states:
In all actions brought as a result of a death or an injury to
person or property occasioned by the tort of any other per­
son, where any such action is dismissed on motion of the
defendant prior to trial under rule 12(b) of the Colorado
rules of civil procedure, such defendant shall have judg­
ment for his reasonable attorney fees in defending the ac­
tion.
Relying on a plain reading of the statute, as well as Tenth Circuit and
district court precedent, the Court determined that awarding reasonable
attorneys’ fees under Section 201 is mandatory where, as here, the Court
dismisses a Colorado tort claim upon a motion brought pursuant to Fed­
eral Rule of Civil Procedure 12(b). On October 10, 2019, the Clerk en­
tered a second amended final judgment, which reflects the Court’s fee
award of $25,947.08.
Fourteen days later, on October 24, 2019, Ms. MacIntyre filed this
motion to reconsider pursuant to Federal Rule of Civil Procedure 59(e).1
i

Citing outdated law requiring Rule 59(e) motions to be filed
within ten days of the entry of judgment, Chase incorrectly argues that
the motion should have been filed pursuant to Rule 60(b). See, e.g.,
Handy v. City of Sheridan, No. 12-CV-01015-WYD-KMT, 2015 WL
428380, at *1 (D. Colo. Jan. 30, 2015), aff’d, 636 F. App’x 728 (10th Cir.
-2-

“Rule 59(e) motions may be granted when ‘the court has misappre­
hended the facts, a party’s position, or the controlling law.’” Nelson u.
City of Albuquerque, 921 F.3d 925, 929 (10th Cir. 2019) (quoting Serv­
ants of the Paraclete v. Does, 204 F.3d 1005, 1012 (10th Cir. 2000)). But
“Rule 59(e) motions are ‘not appropriate to revisit issues already ad­
dressed or advance arguments that could have been raised in prior brief­
ing.’” Id. at 929 (quoting Servants of the Paraclete, 204 F.3d at 1012).
Ms. MacIntyre’s motion advances two arguments. First, she reargues that 28 U.S.C. § 1919 is the only state or federal cost-shifting stat­
ute applicable to a federal court’s dismissal for lack of subject matter
jurisdiction, and it preempts Section 201. (Doc. 60, at 2-4.) The Court
has already addressed this incorrect position, and it cannot do so again
here. See Nelson v. City of Albuquerque, 921 F.3d 925, 930 (10th Cir.
2019) (reversing for abuse of discretion where district court granted Rule
59(e) motion that rehashed old arguments (citing Servants of the Para­
clete, 204 F.3d at 1012)).
Second, she claims that because the Court dismissed her claim for
lack of subject matter jurisdiction under the Rooker-Feldman doctrine,
it didn’t have the jurisdictional authority to then award attorneys’ fees.
Apparently, Ms. MacIntyre “recently realized” she wanted to make this
argument “after additional research.” (Doc. 61-1.) She thus admits that
she could have raised this issue in prior briefing but neglected to do so.
It is therefore not appropriate for the Court to entertain the argument.
But even if it were, it is incorrect. As the Court noted in its previous
2016) (“Rule 59(e) motions must be filed within 28 days of final judg­
ment. Fed. R. Civ. P. 59(e). Motions filed after 28 days of final judgment
should be considered under Rule 60(b).”); see also Van Skiver v. United
States, 952 F.2d 1241, 1243 (10th Cir. 1991) (analyzing a prior version
of Rule 59(e) and noting that a motion not served within 10 days of judg­
ment must be construed as a Rule 60(b) motion).
-3-

order, the Tenth Circuit has already affirmed an award of fees under
Section 201 after dismissing a case for lack of subject matter jurisdic­
tion. Infant Swimming Research, Inc. v. Faegre & Benson, LLP, 335 F.
App'x 707, 715 (10th Cir. 2009). That decision is unpublished, but it is
still “highly persuasive.” See, e.g., United States v. Cleveland, 356 F.
Supp. 3d 1215, 1283 (D.N.M. 2018), appeal dismissed (Feb. 8, 2019).
And it certainly does not amount to a misapprehension of the law by this
Court.
CONCLUSION
Based on the foregoing, Ms. MacIntyre’s motion for reconsidera­
tion (Doc. 60) is DENIED.

DATED: December 11, 2019.

BY THE COURT:

DanieTl). Domenico
United States District Judge

-4-

